IN THE

Supreme Court of tfje fHntteb States;
AFFIDAVIT OF SERVICE
I, Michelle Stopyra Yaney, do swear and declare that
on this date, April 23, 2021, as required by Supreme
Court Rule 29, I declare that I sent to a third party
mailing service the enclosed; PETITION FOR WRIT OF
CERTIORARI to each party or that party’s counsel, and
on every other person required to be served.
I declare that I additionally deposited an envelope
containing the aforementioned petition in the United
States mail properly addressed with first-class postage
prepaid,. The names and addresses of those served areOffice of General Counsel
The State Bar of California
Unit 180 Howard St.
San Francisco, Ca. 94105
213-765-1000
I declare under penalty of perjury that the foregoing
is true and correct.
Executed on April 23, 2021.

Michelle Stopyra Yaney

RECEIVED
APR 2 9 2021

f

